audit report
Return
to the USDOJ/OIG Home Page
Immigration and Naturalization Service Property Management and Financial Statements
Report No. 98-14
May 1998
Office of the Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
INS COULD NOT SUPPORT THE CAPITALIZED ASSET ACCOUNTS OF THE
GENERAL LEDGER
General Ledger Accounts
AMIS Did Not Support The General Ledger
A. Necessary Information for Financial Reporting Not Provided
1. Multiple Funding Sources Not Identified and Reported
2. Depreciation Not Entered in the General Ledger
3. Subsequent Costs Not Reported
B. Appropriate Cost Data Not Disseminated
C. Reconciliations Not Performed
Recent Initiatives
Alternatives for Corrective Action
Conclusion
Recommendation
APPENDIX I - AUDIT SCOPE AND METHODOLOGY
APPENDIX II - ASSET MANAGEMENT INFORMATION SYSTEM OVERVIEW
APPENDIX III - INS GENERAL LEDGER ACCOUNTS FOR CAPITALIZED
PROPERTY
APPENDIX IV - AMIS CAPABILITIES MATRIX
APPENDIX V - ACRONYMS AND DEFINITIONS
EXECUTIVE SUMMARY
Weaknesses in its property management system contributed to the Immigration and
Naturalization Service (INS) receiving a disclaimer of opinion on its FY 1996 Statement of
Financial Position. A disclaimer of opinion means that the examining auditors were unable
to substantiate account balances because the agency did not maintain appropriate
accounting records and relevant documentation.
In an attempt to correct some of the weaknesses noted in its financial statement audit
report, INS managers requested that the Office of the Inspector General assist them in
developing appropriate actions to correct deficiencies in accounting for and reporting
capitalized property. Our review revealed that about $92 million of capitalized property
was not supported by INS' current property management system, the Asset Management
Information System (AMIS). Further, we estimated that at least $5 million in depreciation
expenses were not reflected in the general ledger.
The primary reasons AMIS did not provide adequate support for the general ledger were:
AMIS did not provide the necessary information for financial reporting purposes;
AMIS users did not routinely receive appropriate cost data; and
AMIS data was not reconciled to the general ledger and adjusted when necessary.
Further, INS needs to aggressively strengthen controls to ensure that property
transactions are accurately and completely recorded. INS has taken steps to correct these
problems by establishing a working group to address these deficiencies and to discuss
alternative solutions.
We recommend that the INS correct the management control weaknesses noted above, either
by modifying AMIS or acquiring and implementing a proven capitalized asset system. A
decision between these options including an implementation plan should be completed by
September 30, 1998.
The details of our results are contained in the Findings and Recommendations section of
the report. Our audit scope and methodology are contained in Appendix I.
INTRODUCTION
In FY 1996, independent auditors who reviewed the Immigration and Naturalization
Service's (INS) Statement of Financial Position issued a disclaimer of opinion1 because they were unable to substantiate amounts reported in
INS' financial statement account balances, including capitalized property, due to
inadequate documentation. At the end of September 1997, INS' general ledger balance for
capitalized property totaled $134 million and did not disclose almost $78 million in FY
1997 purchases of capitalized property2. Considering
the $78 million in purchases, the general ledger balance should have been at least $212
million--about $92 million higher than the balance shown in subsidiary records. These
discrepancies occurred because the INS: (1) maintained two separate, non-integrated
systems for reporting financial management and property management activities, and did not
reconcile differences between the two; (2) did not maintain necessary data in the property
management system; and (3) did not maintain clear lines of communication or clearly
delineate certain organizational responsibilities.
The INS requested that the Office of the Inspector General (OIG) conduct an independent
evaluation of its capitalized property system to assist the agency in developing
appropriate courses of action to correct known deficiencies in accounting for and
reporting capitalized property. At the time of our review, INS was in a transition period
moving from its existing financial management system, the Financial Accounting and Control
System (FACS), to the new Federal Financial Management System (FFMS).
Organizationally, two different INS offices are responsible for maintaining the general
ledger and its supporting subsidiary records for capitalized property. The Office of
Finance (Finance) maintains the general ledger and the Office of Administration
(Administration) maintains the property management system, the Asset Management
Information System (AMIS). Both of these offices report to the Executive Associate
Commissioner for Management.
Our review focused on the capabilities of the current property management system, AMIS,
to support the general ledger account for capitalized property. For more detailed
information on AMIS see Appendix II. To better understand and evaluate property management
systems that successfully support general ledgers, we reviewed systems at two other
federal government agencies and three private firms. These entities received unqualified
opinions on their financial statements. We reviewed how they accounted for and reported
capitalized assets. We also reviewed the extent of the reconciliation of their general
ledger to their property system. Results of these reviews are included in applicable
sections of this report.
FINDINGS AND RECOMMENDATIONS
INS COULD NOT SUPPORT THE CAPITALIZED ASSET ACCOUNTS OF
THE GENERAL LEDGER
AMIS did not accomplish a primary capital asset accounting function--to serve as the
subsidiary ledger. This deficiency was due to several factors. AMIS lacked necessary
information for financial reporting purposes; AMIS users lacked accurate cost information;
and INS staff did not adequately reconcile discrepancies between AMIS and the general
ledger. INS managers have initiated actions to alleviate some of these financial reporting
deficiencies. However, AMIS must be modified to collect, calculate, and report critical
data before it can adequately support the general ledger.
The Chief Financial Officers Act of 1990 (Act), created to bring effective financial
management to governmental operations, provides guidance for financial reporting. The Act
specifically requires financial information to be complete, reliable, timely, and
consistent.
GENERAL LEDGER ACCOUNTS
At the end of September 1997, INS' general ledger balance for capitalized property was
$134 million. We identified six general ledger accounts in FACS pertaining to capitalized
property: passenger-carrying vehicles, non-passenger vehicles, aircraft, radio equipment,
office equipment, and all other equipment. Our review revealed that the general ledger did
not include approximately $78 million in capitalized property purchases3.
Considering the $78 million in FY 1997 purchases, the general ledger balance should
have been at least $212 million--an amount $92 million higher than the balance shown in
subsidiary records (AMIS).4 To determine why the
general ledger was not properly maintained, we first evaluated the status of the general
ledger for capitalized property-related accounts for FY 1997.
The general ledger was maintained on FACS which was a computerized financial system
that tracked transactions at a summary level.5 FACS
did not have a subsidiary function by which assets could be individually tracked by INS;
therefore, INS staff attempted to use AMIS as the subsidiary ledger for capitalized
property.
AMIS DID NOT SUPPORT THE GENERAL LEDGER
AMIS is a decentralized system that requires input of data for property at over 150
field locations. Both the Offices of Administration and Finance rely on information
reported in the system, but for different purposes. Administration uses the system to
identify the location, status, etc., of INS property. Finance, on the other hand, uses the
data to support the capitalized asset accounts on the general ledger. Consequently, it is
important that the system meets the needs of both users.
We compared the AMIS structure with Federal Financial Accounting Standards for
capitalized property, noting any differences. In addition, we evaluated INS' existing
policies and procedures to identify requirements for the accounting and recording of
capitalized property in AMIS.
We identified 11 elements necessary for a system to produce a supportable general
ledger for capitalized property. These elements were obtained from a review of Federal
Financial Accounting Standards and through discussions with INS staff. The elements were
used to assess AMIS as shown in Appendix IV. The three primary reasons why AMIS did not
provide adequate support for capitalized property reported on the general ledger are that:
A. AMIS did not provide the necessary information for financial reporting purposes;
B. AMIS users did not routinely receive appropriate cost data; and
C. AMIS data was not reconciled to the general ledger and adjusted when necessary.
A discussion of each deficiency follows.
A. Necessary Information for Financial Reporting Not
Provided
With regard to not providing necessary information, AMIS did not: delineate multiple
funding sources for capitalized property, provide depreciation for the general ledger, or
separately track subsequent costs.
1. Multiple Funding Sources Not Identified and Reported
AMIS, as designed, could not differentiate between multiple sources of funds used to
purchase capitalized property. According to the Federal Financial Accounting Standards6, each reporting entity should accumulate and report the
costs of its activities on a regular basis. This information is important in assessing
program performance.
INS receives funding through various appropriations and fee accounts. These accounts
fund various program activities within INS. Consequently, it is important that INS be able
to identify all costs (i.e. capitalized property purchases) associated with each of its
activities.
Our review of AMIS revealed that multiple funding sources could not be recorded for
capitalized property purchases. In addition, INS never tracked multiple sources through
FACS. However, INS has informed us that the new financial system will correct this
deficiency. It is important that funding information involving multiple sources is
accurately recorded in either the property or the financial system.
2. Depreciation Data Not Entered in the General
Ledger
AMIS did not calculate and track annual depreciation expense for capitalized property.
INS did compute accumulated depreciation, but the data was not reflected in the general
ledger. These deficiencies affected the accuracy and reliability of INS' FY 1996 and FY
1997 financial statements. According to Federal Financial Accounting Standards7, annual depreciation expense and accumulated depreciation
must be disclosed in the financial statements.
Federal Financial Accounting Standards state that the estimated useful life of a
property should be adjusted when subsequent costs extend its useful life. We found that
AMIS did not have the ability to make individual adjustments in the useful life of assets.
Currently, the useful life of a fixed asset is predetermined by the property type. For
example, according to INS schedules, aircraft at INS have a useful life of 20 years.
Replacing an engine in an aircraft would be a subsequent cost that could increase the
useful life of that aircraft.
AMIS did not have a data field for entering the salvage value for capitalized property.
Federal Financial Accounting Standards require the consideration of salvage value in
computing depreciation. In our judgment, the AMIS database should be revised to capture
this data.
Even though INS did not use AMIS for depreciation data, it made minimal changes to
three of six accumulated depreciation accounts we reviewed. These changes were reflected
in the general ledger accounts of only one of INS' five administrative centers. Since none
of the property accounts were fully depreciated, all accumulated depreciation accounts
generally should have shown increases in FY 1997.
DEPRECIATION OF INS CAPITALIZED ASSETS
INS ACCUMULATED DEPRECIATION ACCOUNT
BALANCE AS OF 9/30/96
BALANCE AS OF 9/30/97
DEPRECIATION
CHANGE
BETWEEN FY
96-978
Passenger Vehicles
$35,486,175
$35,486,175
$0
Non-passenger Vehicles
31,780,846
31,780,846
0
Aircraft
4,233,770
4,233,770
0
Radio Equipment
9,246,817
9,477,236
230,419
Office Equipment
4,766,654
4,829,645
62,991
All Other Equipment
7,228,860
7,427,258
198,398
TOTAL
$92,743,122
$93,234,930
$491,808
Source: INS Consolidated General Ledger for FYs 1996 and 1997
The net asset value for capitalized property categories at the beginning of FY 1997 was
$41,701,3499. According to the general ledger, only
$491,808 of annual depreciation (or about 1 percent) was recorded against these assets. A
review of INS annual depreciation rates for these capitalized assets indicated a range
between 8-20 percent, averaging at 13 percent. Applying this average to the net asset
value ($41,701,349) revealed an estimated annual depreciation of about $5.4 million for FY
1997. This difference of approximately $5 million quantifies the magnitude of the
depreciation problem.
3. Subsequent Costs Not Reported
Subsequent costs are any costs that extend the useful life of or materially change
capitalized property. AMIS, as designed, cannot differentiate between the acquisition cost
and any subsequent costs used to improve capitalized property.
AMIS had only one data field for costs. Any subsequent costs incurred on an asset (such
as purchasing a new avionics system for an aircraft) could not be used to adjust the
valuation of that asset. As a result, AMIS could not calculate the appropriate value of an
asset for the general ledger. In addition, AMIS was not able to determine the appropriate
cost basis from which depreciation should be calculated. Both of these shortcomings
resulted in the production of an inaccurate general ledger.
B. Appropriate Cost Data Not Disseminated
Source documents that reflected the actual cost of capitalized property purchases, were
not distributed to AMIS users. Because AMIS is a decentralized system, end users who
receive the property also enter the data into AMIS. Often, the individual making the data
entry did not receive the appropriate source documents and, therefore, used an estimated
value from a purchase order or some other document. We surveyed 11 INS property
custodians. Five of them stated that they used the purchase order amount, rather than the
invoice amount, when entering property into AMIS. This deficiency was also reported by the
independent auditors in INS' FY 1996 financial statement audit report.10
According to Federal Financial Accounting Standards, all capitalized property should be
recorded at actual cost. Cost should include all expenditures incurred to bring the
property to a form and location suitable for its intended use. This includes, but is not
limited to: (a) amounts paid to vendors, (b) transportation charges to the point of
initial use, (c) handling and storage costs, and (d) installation costs. This information
is generally not available on a purchase order. Our review of private firms revealed that,
without exception, the basis for their cost data was vendor invoices, not purchase orders.
Using improper cost data not only affects the accuracy of the values recorded in the
financial statements, but also complicates the reconciliation process. It is, therefore,
essential that INS disseminate the appropriate cost data to the field, and establish a
process to ensure that the data is accurately and expeditiously entered into AMIS.
C. Reconciliations Not Performed
The Office of Finance established policy and procedures for performing periodic
reconciliations, but they were not followed. The lack of reconciliation contributed to the
magnitude of the discrepancy between AMIS and the general ledger ($92 million).
The Offices of Administration and Finance are both under the direction of the
Management Division. Historically, there had been little coordination and communication
between these two offices. For timely reconciliations to be successfully performed, staff
from each of these offices need to participate in resolving differences between the
general ledger and AMIS.
One government agency that we reviewed had reliable property figures because there was
good cooperation between the property management staff and the finance staff. The staff
from each area met on a monthly basis to reconcile differences and make any necessary
adjustments to either their property management system or their general ledger. This kind
of participation has been lacking at INS and was one reason that AMIS did not accurately
support capitalized property.
At all three private firms we reviewed, periodic reconciliations between their property
and general ledger systems were an integral part in their producing an accurate general
ledger.
RECENT INITIATIVES
In November 1997, INS assigned a contractor to evaluate the reconciliation process
between AMIS and the general ledger and to develop procedures for an effective
reconciliation. In addition, in December 1997, a working group of INS staff from various
offices met to discuss the reconciliation process. The group includes members of both the
Administration and Finance offices who have responsibility for property management and
financial management, respectively. The group meets on a monthly basis to share ideas and
develop corrective actions to identified weaknesses. The establishment of this group has
increased communication between INS components and improved coordinated efforts.
In order to determine proper balances for its capitalized property, INS conducted a
physical inventory as of September 30, 1997. The independent auditors tested these numbers
and will determine the proper adjustments INS will need to make to the general ledger to
reflect an appropriate capital property figure. These same numbers will be reflected in
the capital property balances of AMIS. With this new starting point, it is imperative that
the INS maintain the accuracy of these balances with appropriate future adjustments.
Additionally, according to INS officials, they have initiated some manual procedures to
address reconciliations and other related processes. This will serve as a short-term
solution until AMIS is improved or a new system is implemented.
ALTERNATIVES FOR CORRECTIVE ACTION
In our judgment, INS has three alternatives to correct deficiencies in accounting for
and reporting capitalized property: (1) modify AMIS to provide the information required;
(2) acquire and implement a new capitalized asset management system to maintain required
financial information on capitalized assets while maintaining AMIS for the general
tracking/managing of all property; or (3) acquire a new property management/capitalized
asset management system that can provide both the required financial information, as well
as track/manage capitalized and non-capitalized property.
If the INS decides to modify AMIS by making technical and administrative changes, it
must incorporate fields that:
provide the various funding sources for INS programs, if the new financial management
system does not,
calculate and track both annual depreciation expense and accumulated depreciation, and
record and track subsequent costs that extend the useful life of equipment.
The two biggest hurdles INS faces are administrative. Specifically, INS needs to
establish a formal process to periodically reconcile the property management and financial
aspects of AMIS, or any other system. Absent this, no system will provide complete and
accurate data. INS also needs to establish a control process for entering accurate,
reliable cost data.
CONCLUSION
INS, through its working group, is attempting to improve AMIS to correct the identified
deficiencies. However, by September 30, 1998, INS should know whether modifications to
AMIS are feasible or whether a new system that corrects these deficiencies, should be
procured. Failure to establish an adequate capitalized property subsidiary ledger could
contribute to INS continuing to receive disclaimer of, adverse, or qualified opinions on
its future financial statements. The Executive Associate Commissioner for Management
should closely monitor the modification and/or acquisition efforts.
Recommendation:
We recommend the Commissioner, INS:
1. Determine whether AMIS can be modified to serve as a subsidiary ledger for
capitalized property, or if a new, proven system should be procured. A decision between
these options and an implementation plan should be completed by
September 30, 1998.
Resolved. The INS concurs with this recommendation and indicated it would be
able to make a decision on the desired system and provide an implementation plan by
September 30, 1998.
To close this recommendation, please identify the system you have chosen, or
modifications to be made to AMIS, and provide the OIG with a copy of the implementation
plan.
APPENDIX I
AUDIT SCOPE AND METHODOLOGY
This audit was conducted in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. However, we may not be considered to be
completely independent of INS, as required by the standards, because INS has reimbursed us
for work that pertained to INS fee-supported programs. The Office of Management and Budget
and the Department of Justice (including the OIG, the INS, and the Justice Management
Division) disagree with INS funding our work and are attempting to have the funds
appropriated directly to the OIG. In FYs 1996 and 1997, the OIG received $5 million for
fee-related audits, investigations, and inspections. The dollar amount funded
approximately 14 percent of the total OIG staff positions. Nonetheless, we consider
ourselves independent and do not believe that our reimbursement arrangements with INS have
had any effect with regard to our conduct of this audit.
The primary objective of the audit was to determine whether INS' property management
system could provide adequate support for the capitalized property accounts. To accomplish
this objective, we determined the reliability of internal controls over recording and
reporting capitalized property, and assessed INS' compliance with Federal Financial
Accounting Standards pertaining to capitalized property.
Our review focused on the capitalized property portion of the general ledger for FY
1996 and FY 1997, which was the latest information available at the time of our review. We
did not audit the asset categories, real property and structures, which were not tracked
in the property management system.
Audit work was performed from October 1997 to December 1997, at INS Headquarters,
Washington D.C., and at the INS District Office in Chicago, Illinois. We interviewed
appropriate personnel in both locations and reviewed pertinent information.
In addition, we interviewed personnel and reviewed documentation pertaining to general
ledger/property management systems in two other federal agencies and in three private
firms. Each of these organizations received unqualified opinions on their financial
statements in the area of capitalized assets. We did not perform a cost benefit analysis
of AMIS against any alternative systems.
APPENDIX II
ASSET MANAGEMENT INFORMATION SYSTEM OVERVIEW
The INS implemented AMIS in March 1996 as an automated system designed to capture and
maintain data for capitalized property. The AMIS replaced five separate property
management systems, including systems that supported, managed, and accounted for automated
data processing equipment, facilities, vehicles, weapons, and accountable property. AMIS
was designed to record and report information on property throughout its life cycle.
Not only was AMIS a property management system, but also a capitalized property
subsidiary ledger. As a subsidiary ledger, it could identify capitalized property items as
those valued at $25,000 or more. In addition, AMIS classified property items into
categories corresponding to the general ledger capitalized property accounts.
Though the database for AMIS is maintained at a central location, users throughout INS
and at all organizational levels have accessibility. This allows for property management
and subsidiary ledger functions to be performed at remote locations.
Property management data is entered directly by INS Headquarters, Administrative
Centers, Regions, Districts, Sectors, and sublocations into the mainframe system. In
total, staff at over 150 locations enter the data.
APPENDIX III
INS GENERAL LEDGER ACCOUNTS
FOR CAPITALIZED PROPERTY
INS CAPITALIZED
PROPERTY ACCOUNT
ACCOUNT
BALANCES AS
OF 9/30/96
ACCOUNT
BALANCES AS
OF 9/30/97
PURCHASES OF CAPITALIZED PROPERTY IN FY 1997
Passenger Vehicles
$47,666,797
$47,666,797
$29,303,183
Non-passenger Vehicles
48,517,284
48,517,284
44,473,443
Aircraft
4,837,758
4,837,758
2,119,419
Radio Equipment
12,833,468
12,833,468
76,429
Office Equipment
8,258,842
8,258,842
536,815
All Other Equipment
12,330,322
12,330,322
1,202,683
TOTAL
$134,444,471
$134,444,471
$77,711,972
Source: INS Consolidated General Ledger for FYs 1996 and 1997 FACS
Report of FY 1997 Disbursements for Capitalized Property
APPENDIX IV
AMIS CAPABILITIES MATRIX
Financial Reporting Requirements for Capitalized Property
AMIS Capabilities
1. a. Historical Cost of Asset in the aggregate. 11
b. Historical Cost of Asset by item.
2. a. Subsequent Costs in the aggregate.
b. Subsequent Costs by item.
3. Depreciation:    a. Annual Depreciation
(1) Useful Life
(2) Salvage Value
b. Accumulated Depreciation
4. Funding Source12 (e.g. S&E
fund, User Fee fund, etc.)
5. General Ledger Account Number13
6. Detailed records:    a. Date of Acquisition
b. Date of Disposal (or Out of Service)
c. Asset Identification (e.g. description, serial number, barcode
number, etc.)
= Yes
= No
APPENDIX V
ACRONYMS AND DEFINITIONS
Accumulated Depreciation
The amount of depreciation expense that has been charged
from the date of acquisition.
AMIS
Asset Management Information System
Capitalized Asset
An asset with an initial acquisition cost of $25,000 or more
and an estimated useful life of two years or more.
Data Element
A field in a computer system that captures a certain kind of
information.
Depreciation Expense
A decrease or loss in value because of wear or age.
FACS
Financial Accounting and Control System
FFMS
Federal Financial Management System
Financial Statements
A presentation of financial data derived from accounting
records.
General Ledger
A collection of all asset, liability, revenue, and expense
accounts in which all transactions are classified either in detail or in summary form.
Independent Auditors
A public accounting firm hired to perform an audit of the
financial statements of an organization.
Net Asset Value
The difference between the total cost of an asset and
offsets, such as accumulated depreciation.
Property Custodian
The person responsible for all property management actions
taken for property in a particular location.
Property, Plant, and Equipment
Long-term fixed assets used in the operations of the
organization.
Reconciliation
Bringing the balances of two or more related accounts or
statements into agreement.
Salvage Value
An estimate of the amount that will be realized at the end
of the useful life of a depreciable asset.
Subsequent Costs
A cost that extends the useful life of capitalized property.
Subsidiary Ledger
A group of similar accounts that are taken out of the
general ledger and that show the detail of one specific activity.
Useful Life
The total number of years property is expected to be used.
1      OIG Audit Report 97-22A, "INS
Annual Financial Statement Fiscal Year 1996" dated August 1997. The auditors who
conducted the FY 1997 financial statement audit issued a disclaimer of opinion. However,
the final FY 1997 report has not been issued as of this date.
2      Capitalized property is property
with an acquisition cost of $25,000 or more and an estimated useful life of more than two
years.
3      For a detailed listing of these
purchases, see Appendix III.
4      Prior to the exit, INS provided us
with figures for the two vehicle categories from AMIS which could potentially decrease
this discrepancy. However, as will be stated later, AMIS figures were never reconciled to
the general ledger.
5      We were unable to review the
general ledger portion of FFMS because it was not fully implemented at INS or at any other
federal agency at the time of our review.
6      Statement of Federal Financial
Accounting Standards Number 4, "Managerial Cost Accounting Concept and Standards for
the Federal Government" issued July 31, 1995.
7      Statement of Federal Financial
Accounting Standards Number 6, "Accounting for Property, Plant and Equipment"
issued November 30, 1995.
8      These figures represent the annual
depreciation expense for FY 97 as represented to us by INS.
9      Net asset value was determined by
taking the FY 1996 total capital property balance of $134,444,471 less the FY 1996 total
accumulated depreciation of $92,743,122.
10      OIG Audit Report 97-22A, page 22.
11      Requirement numbers 1 through 3
are according to the Statement of Federal Financial Accounting Standards No. 6:
"Accounting for Property, Plant, and Equipment."
12      According to the Statement of
Federal Financial Accounting Standards No. 4: "Managerial Cost Accounting Concept and
Standards for the Federal Government."
13      Requirement numbers 5 and 6
were identified through discussions with INS personnel.
#####